<html>
<title> - DOGS OF DHS: HOW CANINE PROGRAMS CONTRIBUTE TO HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 114-673]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-673

    DOGS OF DHS: HOW CANINE PROGRAMS CONTRIBUTE TO HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             MARCH 3, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the       
                
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]          
        
        
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
22-766PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>         
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
           Jose J. Bautisa, Senior Professional Staff Member
              Rebecca N. Nuzzi, Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
               Holly A. Idelson, Minority Senior Counsel
     Brian B. Turbyfill, Minority Senior Professional Staff Member
         Abigail A. Shenkle, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                           
                           
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     3
Prepared statements:
    Senator Johnson..............................................    25
    Senator Carper...............................................    27
    Senator Peters...............................................    29

                                WITNESS
                        Thursday, March 3, 2016

Doug Timberlake, Transportation Security Inspector, 
  Transportation Security Administation; accompanied by Rriverso.     1
Jennifer Jones, Agriculture Specialist, U.S. Customs and Border 
  Protection; accompanied by Hudson..............................     2
Patrick Dowling, Officer/Instructor, U.S. Customs and Border 
  Protection; accompanied by Nicky...............................     2
Kimberly S. Hutchinson, Deputy Assistant Administrator, Office of 
  Training and Development, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     5
Damian Montes, Director, Canine Training Program, Office of 
  Training and Development, U.S. Customs and Border Protection, 
  U.S. Department of Homeland Security; accompanied by Robert 
  Lukason and Keith Barker.......................................     7
Jennifer Grover, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office...............................     9
Cynthia M. Otto, D.V.M., Ph.D., Executive Director, Penn Vet 
  Working Dog Center, University of Pennsylvania; accompanied by 
  Jerry..........................................................    10

                     Alphabetical List of Witnesses

Dowling, Patrick:
    Testimony....................................................     2
Grover, Jennifer:
    Testimony....................................................     9
    Prepared statement...........................................    43
Hutchinson, Kimberly S.:
    Testimony....................................................     5
    Joint prepared statement.....................................    31
Jones, Jennifer:
    Testimony....................................................     2
Montes, Damian:
    Testimony....................................................     7
    Joint prepared statement.....................................    31
Otto, Cynthia M., D.V.M., Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    58
Timberlake, Doug:
    Testimony....................................................     1

                                APPENDIX

Statements submitted for the Record from:
    American Civil Liberties Union...............................    69
Responses to post-hearing questions for the Record from:
    Ms. Hutchinson and Mr. Montes................................    76

 
    DOGS OF DHS: HOW CANINE PROGRAMS CONTRIBUTE TO HOMELAND SECURITY

                              ----------                              


                        THURSDAY, MARCH 3, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Ayotte, Ernst, Carper, and 
Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order. I am really looking forward to this hearing. This is 
something that has been really a couple of years in the 
planning from my standpoint, because I have always been 
intrigued by the capabilities of canine units and I love dogs, 
particularly little puppies like Jerry.
    What we are going to first start out with is we are going 
to introduce the two canine teams that later will be doing a 
demonstration for us. The first is the Transportation Security 
Administration (TSA) canine team. Doug Timberlake is a 
Transportation Security Inspector for TSA, and he is here with 
his partner, Rriverso, who has a pretty special name, named 
after somebody who was lost in the World Trade Center, I was 
told. Mr. Timberlake, kind of walk through it.

     TESTIMONY OF DOUG TIMBERLAKE, TRANSPORTATION SECURITY 
INSPECTOR, TRANSPORTATION SECURITY ADMINISTRATION; ACCOMPANIED 
                          BY RRIVERSO

    Mr. Timberlake. Good morning, Mr. Chairman. Good morning, 
Ranking Member. My name is Douglas Timberlake. I am an 
explosive detection canine handler with the Transportation 
Security Administration. My passenger screening canine, 
Rriverso, and I work at Ronald Reagan Washington National 
Airport. We conduct screening operations throughout various 
parts of the airport looking for both stationary improvised 
explosive devices (IEDs) and person-borne IEDs to ensure the 
safety of the traveling public.
    There is no machine that can detect the presence of 
explosive materials the way that a canine can. Machines can 
confirm the presence of explosive substances, but they cannot 
reason and problem-solve to find the source of a substance.
    In a few minutes, you will see a demonstration of what it 
looks like when Rriverso alerts on a traveler carrying 
explosive material during a checkpoint screening operation.
    Finally, I would like to point out that Rriverso is named 
after Joseph Riverso, who was from White Plains, New York, and 
was in one of the World Trade Center towers on 9/11. A few 
years ago, he got to meet the family in New York, and I try to 
tell as many people as possible that he is out here keeping us 
all safe in Joe's name.
    Chairman Johnson. Well, thank you. That is a wonderful 
tribute. Thank you for your service.
    Next we will bring our Customs and Border Protection (CBP) 
canine team, and this is Jennifer Jones, an Agriculture 
Specialist working with the Office of Field Operations at the 
Customs and Border Protection agency. She is here with her 
partner, Hudson.

   TESTIMONY OF JENNIFER JONES, AGRICULTURE SPECIALIST, U.S. 
      CUSTOMS AND BORDER PROTECTION; ACCOMPANIED BY HUDSON

    Ms. Jones. Hi. I am Jennifer Jones. I am with Customs and 
Border Protection. I am an agriculture handler. My partner is 
Hudson. He is an approximately 8-year-old Beagle that came out 
of Daytona Animal Control, Daytona, Florida. He is trying to 
find fruits, plants, meats, and seeds that are in the baggage 
of passengers that are entering the United States. He runs 
about 95 percent accurate most days. He does sometimes make a 
little mistake here and there, but he is usually pretty good. 
He has found everything from a single grape up to about 100 
pounds of coarse sausage that was in a bag.
    Chairman Johnson. What kind of dog is he, again?
    Ms. Jones. He is a Beagle.
    Chairman Johnson. He is a Beagle, OK. That is a pretty good 
size Beagle. I had one of those when I was growing up.
    Ms. Jones. He is on the bigger end.
    Chairman Johnson. Ours was plumper. [Laughter.]
    Ms. Jones. They can get fat. He walks a lot.
    Chairman Johnson. Well, thank you.
    Next we have Patrick Dowling, and Patrick is a Customs and 
Border Protection Officer and Instructor. He is here with his 
partner, Nicky.

TESTIMONY OF PATRICK DOWLING, OFFICER/INSTRUCTOR, U.S. CUSTOMS 
          AND BORDER PROTECTION; ACCOMPANIED BY NICKY

    Mr. Dowling. Good morning. As you said, my name is Patrick 
Dowling. This is Nicky. He is a Belgian Malinois. He is 3 years 
old. He is trained to U.S. currency--and firearms. I currently 
work at the Dulles International Airport. We focus most of our 
efforts on the outbound side of detection for currency.
    Some of the significant things that he has done outbound 
finding currency is we intercept folks traveling out of the 
country and a lot of times they do make an initial report, and 
once they go by the dog, we find out a lot of times that those 
reports are not accurate. So we have to send them back. He is 
in the million dollar club about three times over now, so he 
has found about $3 million in 2 years.
    Chairman Johnson. Well, thank you, Mr. Dowling. And, again, 
we are looking forward to the demonstration, which we will have 
when we have another member showing up, and I do want to have 
the Senator see that.
    Unfortunately, it has been a pretty busy day for different 
hearings and important hearings, so we do not have quite as 
many people as I had hoped. But we will convey the experience 
to everybody else.
    I would ask unanimous consent that my written opening 
statement be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 25.
---------------------------------------------------------------------------
    As I was saying before, this is a hearing that I have been 
wanting to hold for a couple of years. As we have held hearings 
on airport security and border security, I have been intrigued 
by the capabilities and the cost evaluation of using canine 
units, because I know they are very effective.
    And then I was fortunate to be hosted by Senator Pat Toomey 
at the University of Pennsylvania and the training center 
there, and we will have Dr. Otto talk about that in greater 
depth. But it was unbelievable in terms of the demonstration 
that we were shown at the University of Pennsylvania, and so I 
am so pleased that Dr. Otto is here.
    But when we take a look at airport security, I think as we 
talk to Secretary Jeh Johnson, always on his mind is the threat 
in terms of airlines and airline safety. I really do believe 
canine units can be one of those layers and a very effective 
layer in keeping this Nation safe and keeping our air traffic 
safe as well. So, again, I am really looking forward to this 
hearing. I am looking forward to the testimony. I want to thank 
the witnesses for coming and for your thoughtful testimony.
    And with that, I will turn it over to Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman, and thanks for 
bringing us all together. I think most of us in the room have 
probably had a dog or two in our lives, and the Chairman 
mentioned that he once had a ``plump Beagle,'' I think he said. 
It reminds me that when I was a little boy, 5, 6, 7 years old, 
we had--in fact, up until I was about 12 or 13, we had Jack and 
Jill, a husband and wife team of Beagles. And they were great 
rabbit dogs. They chased a lot of rabbits. They were not plump. 
They were in great shape. But it sort of like reminds me of 
some of the joy we had with all of them, using their noses to 
find not currency, not weapons, but to look for rabbits, and to 
find a bunch of them as well.
    I just want to say that during multiple visits I have been 
fortunate to take down to our Southern Border and up to our 
Northern Border, I have always been impressed by the use of 
many force multipliers that help our border security officers 
maximize their effectiveness. Oftentimes, these force 
multipliers are high-tech. They are drones, they are fixed-wing 
aircraft, they are helicopters, they are aerostats, they are 
night vision cameras, surveillance cameras, motion detectors. 
You name it.
    But, also, sometimes we find out that our officers get 
critical help from some low-tech friends. I am thinking of the 
horses that guide the Border Patrol--I am sure you remember 
that visit down at the Texas border with Mexico--border agents 
trying to make their way through dense brush on horseback and, 
fortunately, because of the horses, they are able to do a much 
better job. And then we find that there are those gifted dogs, 
some of whom we are going to meet today, who can help find 
things and threats that are invisible to us as human beings.
    As we will hear, and perhaps even see, I think, later in 
the hearing, some of our specially trained dogs, how they can 
detect people or things that humans or machines just miss. 
Canines are already at work, as we know, across a number of 
Department of Homeland Security (DHS) programs. For instance, 
DHS uses dogs to check for explosives within our airports and 
trains like the one I took today. We also see dogs hard at work 
between our ports of entry (POE) where they attempt to detect 
the illegal entry of people and goods.
    We know that the special abilities of these animals have 
already contributed to our homeland security. For example, 
canine teams are credited with helping CBP seize more than 
4,500 pounds of heroin in the last fiscal year (FY). That same 
year, dogs helped to track thousands of migrants along the 
southwest border of our country and discovered 83 people hiding 
in vehicles crossing through ports of entry. Other dogs have 
helped detect illicit plants or animals, while some helped find 
human remains near our borders.
    Security is not their only mission. Dogs have also been 
invaluable in search and rescue following natural disasters. 
This is an area where I am not sure we are doing enough to take 
advantage really of their capabilities.
    At the same time, these valuable tools are not free. Dogs 
with the proper abilities and temperament to conduct searches 
are expensive to buy and even more expensive to train and to 
deploy effectively, and we will hear about that today. As with 
all of our security investments, we must make sure we are 
deploying these canine teams in the most cost-effective way.
    Today we are going to hear about some of the open questions 
regarding canine teams. I think, in particular, the Government 
Accountability Office (GAO) has taken a hard look at TSA's 
canine program and raised some questions about how and where 
they are trained and deployed. And while TSA has successfully 
addressed some of GAO's earlier concerns, I understand that 
some other questions remain, and maybe we will have a chance to 
hear those today.
    I look forward to hearing from both agencies about the 
current status of their canine programs and plans for the 
future. We also need to drill down on what these canines can 
and cannot accomplish and what information is needed to make 
sure we are making the right investments in these force 
multipliers.
    This is going to be an interesting hearing, and we look 
forward to it. Thank you all for joining us.
    Chairman Johnson. Thank you, Senator Carper. I do not know 
about your Beagles, but my Beagle did not realize he was a dog. 
He was just a younger brother. He actually sat up in a chair.
    Senator Carper. I thought one of these dogs was going to 
try to get in that chair over there and reach the mic. But it 
did not happen. [Laughter.]
    Chairman Johnson. It is the tradition of this Committee to 
swear in witnesses, so if you will all rise and raise your 
right hand. Do you swear the testimony you will give before 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Hutchinson. I do.
    Mr. Montes. I do.
    Ms. Grover. I do.
    Ms. Otto. I do.
    Chairman Johnson. Please be seated.
    Let us start with testimony. We are hoping for at least one 
or two additional Members to come before we do the 
demonstration, but if they do not, I also want to make sure we 
get the dogs before they get restless. We may interrupt in 
between witnesses.
    Our first witness is Kimberly Hutchinson. Ms. Hutchinson is 
the Deputy Assistant Administrator for the Office of Training 
and Development at the Transportation Security Administration. 
In her capacity, she oversees TSA's technical and leadership 
training, workforce development, and engagement programs. Ms. 
Hutchinson.

   TESTIMONY OF KIMBERLY S. HUTCHINSON,\1\ DEPUTY ASSISTANT 
      ADMINISTRATOR, OFFICE OF TRAINING AND DEVELOPMENT, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Hutchinson. Thank you, sir. Chairman Johnson, Ranking 
Member Carper, and Members of the Committee, thank you for the 
opportunity to testify regarding TSA's canine training program.
---------------------------------------------------------------------------
    \1\ The prepared joint statement of Ms. Hutchinson and Mr. Montes 
appears in the Appendix on page 31.
---------------------------------------------------------------------------
    TSA procures, trains, and deploys both TSA-led and State 
and local law enforcement-led canine teams to secure our 
Nation's transportation systems. Congress has recognized the 
value of TSA's canine program through its continued support and 
funding. It is currently the largest explosives detection 
canine program in DHS and the second largest in the Federal 
Government, with 997 funded canine teams currently stationed at 
more than 100 of our Nation's airports, mass transit, and cargo 
environments. The success of TSA's canine program is a prime 
example of Federal, State, and local government entities 
working together.
    Given the security value of explosive detection canines, 
TSA must ensure a reliable and adequate supply of canines. TSA 
procures canines primarily through an Interagency Service 
Agreement with the Department of Defense, which supplies TSA 
with approximately 230 canines each year. TSA partners with the 
Department of Defense (DOD) during the canine selection and 
evaluation process on both State-side vendors and overseas 
buying trips, ensuring TSA's needs are met.
    In addition to procuring canines through DOD, TSA is 
exploring procurement of both trained and untrained canines 
from qualified private sector businesses. TSA's goal is to 
procure an additional 20 trained passenger screening canines 
and 20 untrained canines suitable for passenger screening in 
fiscal year 2016 through this new procurement initiative.
    Once TSA procures a canine, the agency pairs it with a 
Federal, State, or local handler to be trained to operate in 
the aviation, multimodal, maritime, mass transit, or cargo 
environments.
    The majority of canine teams working in the aviation 
environment are comprised of a canine and a State or local law 
enforcement officer. For these teams, TSA provides and trains 
the dog, trains the handler, provides training aids and 
explosive storage magazines, and conducts annual onsite 
evaluations of these canines. TSA partially reimburses each 
participating agency for operational costs associated with 
maintaining the teams, and in return, the law enforcement 
agencies agree to use the canines in their assigned environment 
for at least 80 percent of the handler's duty time.
    In addition to State and local law enforcement-led teams, 
TSA Inspectors lead 322 canine teams, including all of our 
passenger screening canine teams, which are specifically 
trained to detect explosives' odor on passengers in the 
checkpoint environment, in addition to their conventional 
explosives detection role.
    TSA and State and local law enforcement handlers travel 
from across the country to TSA's Canine Training Center (CTC), 
located on Lackland Air Force Base down in San Antonio, Texas, 
to be paired with a canine and complete training. The canine 
teams learn explosives detection in a very intense training 
environment, and teams are trained to detect a variety of 
explosives based on intelligence data and emerging threats.
    In fact, tomorrow TSA will hold a ribbon-cutting ceremony 
for a new 25,000-square-foot facility at the Training Center 
with seven new classrooms, a 100-seat auditorium, and 
administrative space.
    Approximately 30 days after graduating from the training 
program and returning to its duty station, each canine team 
undergoes an assessment to ensure operational proficiency in 
that environment. Upon successful completion of the assessment, 
canine teams are then evaluated on an annual basis under the 
most stringent of applicable certification standards.
    TSA allocates canine teams to specific cities and airports 
utilizing risk-based criteria. Passenger screening canine teams 
are critical to TSA's risk-based security efforts and are 
deployed to operate during peak periods at 40 of our Nation's 
largest airports, where they have the opportunity to screen 
tens of thousands of passengers every day. TSA is working to 
train and certify all of its 322 canine teams in both passenger 
screening and traditional explosive detection screening by the 
end of fiscal year 2017.
    In addition to deployments at passenger screening 
checkpoints, TSA and law enforcement-led teams conduct a 
variety of search and high visibility activities that address 
potential threats in the transportation domain, including 
Visible Intermodal Prevention and Response (VIPR) operations.
    The Government Accountability Office, DHS Inspector General 
(IG), and other independent testers have proven canine teams to 
be one of the most effective means of detecting explosives 
Canine teams are critical to TSA's focus on security 
effectiveness, and TSA continues to develop its canine training 
program to maximize its contributions to transportation 
security.
    Last, I would like to thank all of the hardworking men and 
women canine handlers across the Nation's transportation system 
who keep us safe every day, as well as the very dedicated staff 
that support the program and train our canines down in 
Lackland.
    Thank you for the opportunity to discuss this important 
program, and I look forward to your questions.
    Chairman Johnson. Thank you, Ms. Hutchinson.
    Our next witness is Damian Montes. Mr. Montes is the 
Director of the Canine Program at U.S. Customs and Border 
Protection. Mr. Montes started his career in the United States 
Marine Corps (USMC). Subsequently, he graduated from the 
Department of Defense Military Working Dog Handler Course and 
joined CBP. He is a former handler. Mr. Montes.

   TESTIMONY OF DAMIAN MONTES,\1\ DIRECTOR, CANINE TRAINING 
 PROGRAM, OFFICE OF TRAINING AND DEVELOPMENT, U.S. CUSTOMS AND 
   BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY; 
         ACCOMPANIED BY ROBERT LUKASON AND KEITH BARKER

    Mr. Montes. Good morning, Chairman Johnson and Ranking 
Member Carper. Thank you for the opportunity to appear today 
and talk about the U.S. Customs and Border Protection Canine 
Training Program. I am the Director of the CBP Canine Training 
Program and am responsible for the administrative and 
operational oversight of our two Canine Training and Delivery 
Centers, one located in Front Royal, Virginia, and the other in 
El Paso, Texas.
---------------------------------------------------------------------------
    \1\ The prepared joint statement of Mr. Montes and Ms. Hutchinson 
appears in the Appendix on page 31.
---------------------------------------------------------------------------
    The CBP Canine Program is the fusion of two legacy training 
facilities: the legacy U.S. Customs Canine Enforcement Training 
Center and the U.S. Border Patrol National Canine Facility. The 
merger of these two training entities afforded the CBP Canine 
Training Program to build on decades of established expertise 
in law enforcement canine training and to capitalize on best 
practices.
    The CBP Canine Training Centers are where CBP workers, 
canines, handlers, and instructors receive classroom and 
practical training and the canine discipline utilized to 
support the critical mission of detecting and addressing cross-
border illicit activities, including gun and currency 
smuggling, narcotics smuggling, human trafficking and 
smuggling, and illegal immigration.
    The CBP Canine Training Program delivers several courses 
for handlers and instructors to support the mission in multiple 
operational environments. These courses include concealed human 
and narcotic detection, currency and firearms detection, human 
remains/cadaver detection, tracking and trailing, search and 
rescue, patrol, and recertification instruction course.
    Our training cadre is comprised of experienced CBP law 
enforcement officers and agents, also know as course developer 
instructors, who come to us from existing field canine units 
and serve a 3-to 5-year instructor detail. I must highlight the 
significance of having such subject matter experts with recent 
and relative field experience deliver canine training and 
instruction to the next generation of canines, handles, and 
instructors. The value they contribute to the CBP Canine 
Training Program's mission is immeasurable. Furthermore, 
recruiting experienced canine instructors from within the ranks 
of CBP ensures a continuity of expertise and availability of 
training opportunities.
    The course developer instructors who work at our training 
centers bring with them not only the passion of being a canine 
handler, but being part of a specialized unit that provides a 
unique and valuable capability to CBP's front-line law 
enforcement mission. But I would be remiss not to mention our 
support staff--our veterinarians, our animal health 
technicians, our animal caretakers, our maintenance support 
personnel, and our mission support admin personnel, who play an 
integral part in ensuring the effectiveness and the delivery of 
our training.
    The CBP Canine Training Program can be credited with 
training some of the best canine teams that work at any of our 
international border crossings, international airports, and 
vast open areas of our border. The CBP canine officers and 
agents who work with the CBP Canine Training Program have also 
assisted in capacity-building initiatives with the Office of 
International Affairs and developing and delivering canine 
training for our international partners. Furthermore, our 
training centers are available to Federal, State, and local law 
enforcement agencies wanting to receive formal training and 
certification in any of the canine training disciplines we 
deliver.
    The canine team is an invaluable asset to the operational 
border and port environments, regardless of the presence of 
other detection technologies, providing an unmatched law 
enforcement capability to address the ever changing challenges 
and threats.
    Over the past 3 years, the CBP Canine Training Program, 
under the oversight of the Office of Training and Development, 
has ensured that CBP canine training centers' academic 
curriculum, practical applications, evaluations, certification, 
and overall training provides the standard and fidelity that 
meets the CBP operational needs and requirements.
    As border conditions and enforcement environments have ever 
changed over the past 30 years or more, CBP's law enforcement 
canine teams have remained constant, reliable, invaluable 
assets to our Nation's security. Each and every day they 
demonstrate and validate their importance through numerous 
seizures and detections.
    I am honored to be part of the CBP Canine Program and 
appreciate the opportunity to share our efforts today, and I am 
welcome to answer any questions.
    Chairman Johnson. Thank you, Director Montes.
    Our next witness is Jennifer Grover. Director Grover is the 
Director in the Homeland Security and Justice Team at the U.S. 
Government Accountability Office. In this position, she 
oversees GAO's reviews of TSA programs and operations. Director 
Grover.

 TESTIMONY OF JENNIFER GROVER,\1\ DIRECTOR, HOMELAND SECURITY 
       AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Grover. Good morning, Chairman Johnson, Ranking Member 
Carper. Thank you for the opportunity to discuss TSA's 
implementation of their canine program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Grover appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    TSA has funding for 997 canine teams. They include 
conventional canines, which are trained to detect explosives in 
stationary objects such as vehicles and baggage, and passenger 
screening canines (PSCs), which receive extra training to 
detect explosives carried by a person. When fully deployed, TSA 
canines will be paired with about 675 law enforcement handlers 
and 322 TSA handlers.
    Following GAO's 2013 report and recommendations, TSA made 
significant improvements to its canine program.
    First, TSA has enhanced its use of data to monitor program 
performance. As an example, field canine coordinators now 
regularly analyze the covert testing data to determine the root 
causes of team failures so that they can be addressed.
    Second, TSA demonstrated that passenger screening canine 
teams reliably identify explosives and determined that they 
should be placed at the passenger checkpoint queues to have the 
greatest impact.
    And, third, TSA has deployed PSC teams to the highest-risk 
airports.
    One important issue remains for TSA's consideration based 
on our prior work. When TSA conducted its initial effectiveness 
assessment of these specialized passenger screening canines, it 
also carried out one of the search exercises with three 
conventional canine teams. So those are the teams that do not 
receive the specialized training.
    The results suggested that the conventional canines might 
be as effective as the canines with the PSC training at 
detecting explosives on people under some scenarios. We 
recommended that TSA should test whether the passenger 
screening canines provide an enhanced security benefit relative 
to the conventional canines and, thus, whether the cost of that 
additional training is warranted.
    TSA officials told us that they did not plan to carry out 
the assessment, citing concerns about the temperament of some 
of the conventionally trained canines and the potential 
liability risk to the agency if it operated conventional 
canines in a passenger screening environment for which they had 
not been trained. We respect TSA's concerns on these issues and 
encourage TSA to consider multiple options for going forward 
with this testing.
    Some conventional canines are suitable breeds, initial 
assessments could take place in a testing environment with role 
players instead of actual passengers, and conventionally 
trained canines could be trained to operate at the checkpoint.
    We continue to believe that this assessment is warranted. 
If the results show that conventional canines are equally as 
effective as passenger screening canines, then TSA could save 
resources currently spent on the specialized training.
    Regarding the magnitude of the potential savings, in our 
2013 study the difference in TSA's startup costs between the 
passenger screening and the conventional canines was $19,000 
per canine. TSA's update for this hearing indicates that the 
difference in startup costs has shrunk to $5,000 per canine, 
which clearly reduces the potential for savings.
    Since TSA plans to expand its PSC training to all 322 
canines with TSA handlers, based on TSA's numbers the savings 
could still be as much as $1.5 million each time the full set 
of TSA-led canines is retired and placed. That is a very small 
fraction of TSA's annual spending for the canine program, but 
still represents a potential opportunity for TSA to be more 
efficient with its limited resources.
    Finally, whether or not the extra PSC training turns out to 
make a difference, TSA could realize additional savings if some 
of the canines were paired with law enforcement handlers 
instead of TSA handlers. Since TSA covers salary, benefits, and 
vehicle expenses for its own handlers, the annual cost to TSA 
for a TSA-led team is $100,000 more than a team led by a law 
enforcement officer.
    In 2013, TSA officials told us that they were considering 
this approach, but to this point, TSA has not yet paired 
passenger screening canines with law enforcement handlers.
    Chairman Johnson, Ranking Member Carper, thank you for the 
opportunity to testify, and I look forward to your questions.
    Chairman Johnson. Thank you, Director Grover.
    Our final witness is Dr. Cynthia Otto. Dr. Otto is the 
founder and executive director for the Penn Vet Working Center 
at the University of Pennsylvania. Her research focuses on 
canine health and behavior. Dr. Otto has also been involved 
with search and rescue dogs and disaster response as a member 
of the Pennsylvania Urban Search and Rescue Task Force, 
including deployments for Hurricane Katrina and during 9/11. 
Dr. Otto.

   TESTIMONY OF CYNTHIA M. OTTO, D.V.M., PH.D.,\1\ EXECUTIVE 
     DIRECTOR, PENN VET WORKING DOG CENTER, UNIVERSITY OF 
               PENNSYLVANIA; ACCOMPANIED BY JERRY

    Dr. Otto. Thank you and good morning, Chairman Johnson and 
Ranking Member Carper. It is a pleasure to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Otto appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    I would like to introduce one of our dogs from the program. 
He is a 10\1/2\-week-old German Shepherd, born in Kansas. He is 
donated to our program, and his name is Jerry. And like all of 
the dogs donated to our program, he is named after one of the 
dogs that worked at the site after 9/11. He is being handled by 
one of our veterinary students from Penn Vet, Meghan Ramos. You 
will be able to meet him after the hearing and learn more about 
his future career.
    The Penn Vet Working Dog Center is a not-for-profit 
research and development center for detection dogs. Our program 
was developed based on our experience with a wide variety of 
organizations, including DOD, the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF), the Federal Emergency Management 
Agency (FEMA), CBP, TSA, police canine departments, the Seeing 
Eye, Puppies Behind Bars, and even pet dog training. Our scope 
of work focuses on the genetic, environmental, behavioral, and 
physical characteristics that lead to successful detection 
performance.
    Since dogs enter our program at 8 weeks of age, our unique 
emphasis includes the impact of early development in enhancing 
the career success of these dogs. Our training philosophy is 
rooted in positive reinforcement and enhancing the dog's 
genetic potential.
    Dogs in our program attend school 5 days a week to learn 
job skills, but live with foster families nights and weekends 
to learn life skills. At the Penn Vet Working Dog Center, we 
operate based on a hypothesis-driven method rather than a 
belief system.
    Consistent with the theme of our upcoming working dog 
conference, Working Dogs 360, a multidisciplinary approach, we 
welcome ideas from all sectors. We then evaluate and collect 
data to test these hypotheses and determine what works best for 
each dog, each discipline, and each program.
    We embrace the opportunities that arise when things do not 
go as planned, which is often. We actually find that some of 
these opportunities are the most valuable learning experiences 
that we have, and in the case of the dogs, we call it ``a 
training opportunity.''
    From this perspective, the key points that I would like to 
highlight for the Committee are: one, that dogs have great 
value in preserving national security; and, two, there are 
strategies that as a Nation on which we can come together and 
will facilitate the success of the dogs in this vital mission.
    I think the first fact that is undisputed is that the 
ability of dogs to smell and identify minute quantities of odor 
far exceeds that of humans and most machines. The other 
universal fact across agencies is that one of the biggest 
challenges to canine programs is the availability of dogs that 
have the physical and behavioral characteristics necessary to 
perform the tasks needed.
    One of the major reasons for the shortage of quality dogs 
is that we rely heavily on procurement of dogs from other 
countries. By outsourcing our national security requirements, 
we give up control of the type of dogs, the health of the dogs, 
and the early training of the dogs. We also are at risk for 
supply interruption due to politics, disaster, or disease.
    Given that we know many of the desirable traits are 
controlled by genetics and that continuous improvements can be 
made through selective breeding, letting these decisions be 
made by organizations that do not have our best national 
interests foremost we are, again, putting ourselves at risk.
    The research in our program and others has shown that 
factors during development of dogs have an important impact on 
behavior and health, including the length of their working 
careers. Again, without having control or input over this 
aspect of the dog's lives increases the risk of shortened 
working life or failed careers.
    So how do we best leverage the scientific knowledge in 
genetics, development, behavior, and health? To us, a national 
breeding program is a priority. The critical features of a 
programmatic success include both superior dog performance and 
sound economics. The goal is to create a cooperative that 
provides dogs to all of the programs that support national 
security.
    To achieve this, all organizations need to communicate and 
work together to identify the genetic and behavioral 
characteristics of the dogs that meet their requirements. So we 
feel that this would represent a Center of Excellence, which is 
classic in homeland security.
    So I would like to thank you for your attention and welcome 
any questions.
    Chairman Johnson. Well, thank you, Dr. Otto.
    We are expecting three more members, I am told, within 5 
minutes, but that is Senate time.
    I want to go back to you, Dr. Otto, because I want to get 
some sense of how many trained dogs are utilized in the United 
States for seeing eye purposes, other specialized purposes, as 
well as law enforcement. Do you have any feel for the total 
number of specialized trained dogs?
    Dr. Otto. So the specialized trained dogs is sort of an 
open question. There are so many new areas, particularly if we 
are talking in the service dog field, where we are talking 
about seeing eye, the autism support dogs, and other dogs. 
Through the Scientific Working Group on Dog and Orthogonal 
detector Guidelines (SWGDOG), I know that they were estimating 
somewhere between 40,000 and 80,000 dogs used, and remembering 
that dogs, when they are employed, they have a fixed life span, 
and so they are retiring at a regular rate. And even if we can 
improve their working life by a year, we are going to impact 
the cost-effectiveness.
    Chairman Johnson. Is that about 8 to 9 years? Is that kind 
of on average?
    Dr. Otto. Eight to nine is pretty typical. Now, a lot of 
dogs, 
some organizations will retire dogs at 9 years of age. This is 
often fixed--and most dogs do not start until they are about 2. 
So they may have as short a career as 7 and even less, 
depending.
    Chairman Johnson. But service dogs are really completely 
different from the standpoint of training and their specialty, 
correct?
    Dr. Otto. Absolutely. The service dogs have taught us a lot 
about the selective breeding. They have taught us a lot about 
how to train some of these dogs. But they are very different 
dogs. They are kind of the opposite end of the spectrum from 
the high-energy, hunting-driven dogs that we are looking at.
    Chairman Johnson. And we breed those here in the United 
States.
    Dr. Otto. Correct. Most of the service dog programs do have 
their own breeding programs. The Seeing Eye, Canine Companions 
for Independence, they have really large breeding programs.
    Chairman Johnson. Now, between TSA and CBP, I have about 
2,500 canine units. Is that pretty accurate, about 1,000 with 
the TSA and about 1,400, 1,500 in CBP?
    Mr. Montes. Yes, sir.
    Chairman Johnson. Do you have any idea in terms of how many 
other specialized units, canine units, in just conventional law 
enforcement?
    Mr. Montes. No. At this time I do not, sir.
    Chairman Johnson. OK. I want to get back to that. Do we 
have another member coming? OK. This is it.
    As long as we have a quorum for our demonstration, let us 
proceed with that. And I think we are going to start with TSA, 
and, Ms. Hutchinson, can you describe what we are going to see 
in terms of this demonstration?
    Ms. Hutchinson. Absolutely. Yes, so we have Rriverso, our 
canine, our Labrador out of Reagan Airport (DCA) here, and his 
handler, Doug Timberlake. And what we are going to try to 
simulate here it is a TSA checkpoint. So, essentially, your 
staff are passengers, and what you are going to see is the 
passengers are going to come through. There is one passenger 
that has a training aid explosive on them, and here is Rriverso 
and Doug.
    [Demonstrations begin.]
    So what you will see Doug doing is giving some search 
gestures to Rriverso here as the passengers come through, and 
then you will see very quickly what passenger has that live 
explosive on them.
    Chairman Johnson. Are the passengers coming?
    Ms. Hutchinson. I think they are here.
    Chairman Johnson. OK.
    Ms. Hutchinson. OK. So we have our passengers coming 
through the checkpoint here. We are going to see Rriverso start 
to work, use his nose.
    And there you go. So if you noticed, he locked in on the 
passenger with the briefcase very quickly, and then he was 
immediately rewarded with his tennis ball, which is his reward 
of choice.
    Chairman Johnson. And the briefcase had what in it?
    Ms. Hutchinson. It had an explosive.
    Chairman Johnson. OK. How many times is that wrapped?
    Ms. Hutchinson. It is safe.
    Chairman Johnson. I will move into that in other questions, 
because that is what amazed me at the University of 
Pennsylvania is how it just almost impossible to wrap these 
things enough. It is impossible.
    OK. Our next one, Director Montes, can you kind of describe 
what we are going to be seeing in this next demonstration?
    [Demonstration begins.]
    Mr. Montes. Yes, this is Ms. Jones and her canine, Hudson. 
So Canine Hudson is trained to find five different types of 
items. In the airport environment, they are going to be 
screening in the passenger environment for any type of illegal 
agricultural products.
    Chairman Johnson. And you have planted some illegal 
agricultural products in the hearing room somewhere?
    Mr. Montes. Yes, we did.
    Chairman Johnson. I am a real rule follower.
    Mr. Montes. Now, so she responded. She sat down.
    Chairman Johnson. So she has located it.
    Mr. Montes. Yes. If you look right over the edge there, you 
can see it. And then what they have is an apple.
    Chairman Johnson. It looks harmless enough. [Laughter.]
    So that was an agricultural product. Then we have another 
demonstration of a different type of----
    Mr. Montes. Yes, we do. We have the currency/firearms dog 
coming in. This is Mr. Dowling and his canine, Nicky. As well, 
we will have some of your staffers--they will have a training 
aid planted on them, currency, and as soon as they come in, he 
will be able to screen them and identify which one is the one 
that is carrying the currency, the training aid.
    [Demonstration begins.]
    So as the passengers come through, Mr. Dowling will start 
screening them with the canine, Nicky.
    [Pause.]
    And so once he identifies that there is something there 
that should not be there--i.e., the contraband--he is going to 
go ahead and respond. And now he is going to get his toy as a 
reward, and the positive indication. So what he gave him right 
now is a PVC pipe.
    Chairman Johnson. I guess whatever works.
    Mr. Montes. Yes.
    Chairman Johnson. Well, thank you. Thank you very much. I 
would have thought he would have responded to that blue suit, 
but that shows you how well trained they are.
    Again, thank you. I will say, as impressive as that 
demonstration is, going to the University of Pennsylvania and 
seeing them really on the job, it is dramatically more 
impressive, I mean, what they are able to do. Let us pick up 
where we left off. Thank you, Senator.
    I want to get back to actually supplying the chain and how 
many dogs we really would like to have and how many we could 
really employ. So, again, we are talking about within TSA and 
CBP about 2,500 canine units now. How many would you like to 
have? Is that kind of adequate for the task? Or could we 
utilize a lot more? Let us start with you, Director Montes.
    Mr. Montes. I will start with a question. So that would be 
an operational requirement to determine both components based 
on their needs of the service to identify what would be their 
optimal number as far as what would assist their multilayer 
approach as far as enforcement operations.
    On our side of the fence, as far as the training 
operations, our requirement is to be able to develop the 
capacity and capability to deliver those dogs once those 
demands and needs and requirements are addressed.
    Chairman Johnson. But do you get a sense, working with the 
other folks in your agency, that there is a greater demand? Is 
there always demand for what you are trying to do? Or, again, 
there may not be demand because we just do not have the budget 
for it.
    Mr. Montes. So the current demand as it stands right now, 
you have the operational floors for the Office of Border 
Patrol, which is 1,113, and as well as for the Office of Field 
Operations, which currently right now is 481. And so those 
numbers are still vacancies in the field that we are still 
trying to go ahead and backfill those positions.
    So we have not reach that floor yet, so it would pretty 
much determine on the components to determine how much higher 
they would want to go after all those positions are filled.
    Chairman Johnson. So you are saying you are 481 short right 
now?
    Mr. Montes. No, sir. Those are the positions.
    Chairman Johnson. Oh, OK. How many short are you?
    Mr. Montes. So 25 positions right now for the Office of 
Field Operations and 300 for the Office of Border Patrol.
    Chairman Johnson. So a pretty good shortage.
    Ms. Hutchinson, do you have a sense in terms of TSA, if you 
could have everything you would want to provide the security 
that we are really looking for in this country, what is your 
sense?
    Ms. Hutchinson. I think that is sort of the $1 million 
question. I think today we have 997 teams throughout the 
Nation, so what we have been doing within that group of teams 
that are currently funded is figuring out how we can really 
maximize them. So as you saw that PSC capability, we just 
rolled that out in 2011, so 5 years ago, which is fairly recent 
for this new concept of operations (CONOPS). So what we are 
sort of learning over time is how to best utilize their time 
screening passengers, so really deploying them at those peak 
periods.
    So we are really trying to maximize with what we have. I 
think moving forward I certainly see we would have more canines 
as part of the security.
    Chairman Johnson. But of the 997, it looks like only 300 
are doing passenger screening, and others are deployed with 
other local law enforcement agencies. What are they doing, also 
transportation? So they are doing trains and bus stations? Is 
it all transportation-related?
    Ms. Hutchinson. That is right. They service all the modes. 
So you would see them, potentially on Amtrak or on buses, 
transit, yes. So they are covering everything, and many of them 
are also deployed in aviation.
    But to your question earlier about the supply, we lose 
about 13 percent of our dogs a year, so about 150 either retire 
for aging out or physical things. So we need to buy about 230 a 
year just to sustain the current operations, and we have found 
a good supply, if you will, of the dogs that we need. However, 
we are going through this process of trying to procure more 
dogs domestically, so if we did have a surge, we would be able 
to buy maybe quicker and bring on dogs into the program more 
quickly.
    Chairman Johnson. Now, the ones that are not used for 
passenger screening in airports, those are being handled by 
local law enforcement officials then? So you are supplying the 
local agencies?
    Ms. Hutchinson. That is correct. We train the dogs and the 
handlers. We work in partnership with them today, yes. If we 
have an unattended bag as an example, we would call law 
enforcement for resolving that.
    Chairman Johnson. So, Dr. Otto, we obviously breed a lot of 
dogs in this country, and what is the secret sauce in terms of 
the European breeders that we are only going there? What is 
preventing us from breeding them here in the United States?
    Dr. Otto. I think it is tradition, and I think it is also 
why the dogs are being bred in this country. In Eastern Europe, 
which is the major source of most of our working dogs, they 
have a long history of breeding dogs for work, whether it is 
specifically for work or even competitions that are work-
related. In this country we tend to breed dogs for pets and for 
show, and those are not the same kinds of dogs that we need for 
this kind of work.
    So in order to breed dogs in this country for this kind of 
work, we really have to look at what are we selecting. A lot of 
our Labradors are coming from hunting lines, so that is at 
least a domestic resource. But even so, they are breeding for 
different reasons, and so we are lucky when we get some of 
these dogs that are very successful, but we need to think about 
what are our goals, physically, behaviorally, that support the 
tasks that these dogs are doing. And it is not always what the 
breeders who are competing or hunting with their dogs are 
breeding for. So identifying those traits, identifying if they 
are heritable so that we can selectively improve the physical 
and behavioral characteristics of the dogs.
    Chairman Johnson. OK. Well, I will pick up on this in the 
next round. Senator Carper.
    Senator Carper. First, a couple lighthearted questions. I 
noted that the dogs got a reward for their search efforts. One 
dog's reward was a tennis ball, and another dog's reward was a 
piece of PVC pipe.
    What is the role and the importance of the reward? How are 
they selected? And do dogs react if they have the wrong reward 
or no reward? I presume they act differently. Who chooses the 
reward? Is it good for a lifetime? Give us a little bit of--
just real quickly on that.
    Mr. Montes. Absolutely. So our primary reward is a toy. It 
is toy-driven prey drive for the canines. So I either have a 
rubber pipe, a PVC pipe. It depends on what the dog really 
enjoys to work for, because that is his paycheck at the end of 
the day.
    So if there is a canine that, for example, uses a PVC pipe 
which he enjoys at this point, but at some point in training 
decides, hey, I like the rubber better than the other one, then 
it would transition. The idea is we want the canine to be able 
to work, and we want to be able to feed that drive toward that 
reward so that canine continually produces over the course of 
his service life.
    Senator Carper. All right. How many years, on average, do 
these dogs serve?
    Mr. Montes. So our canines primarily are between 7 and 9 
years old.
    Senator Carper. And what is the average life span of a dog 
that does this kind of work?
    Mr. Montes. So the average lifetime depends on the canine, 
sir. Currently, we have some dogs that are still in service at 
11 years old. Obviously, we want to make sure that we have a 
quality of life for our canines. We make high demands from our 
canines in the field, so we want to make sure we have a process 
in place to retire them at a suitable age so they have a 
quality retired life after. So their lifetime really depends on 
the individual canine, sir.
    Senator Carper. OK. There are other agencies that have 
canine programs in the Department. For example, I think just 
within DHS, you have FEMA where they use canine teams to 
conduct search and rescue operations. The Federal Protective 
Service I think deploys dogs to sweep Federal buildings looking 
for explosives.
    I do not know who I should ask this of. We will start with 
you, Damian, but could you just describe for us, if you could, 
any departmentwide efforts within DHS to share best practices 
and to find efficiencies in order to improve the respective 
programs?
    Mr. Montes. Sure. I have been in this position for the last 
2\1/2\ years, and since I have been in this position, we have 
conducted numerous outreach on how to improve our program or 
share best practices with others. We have met with TSA. We have 
also met with Ms. Otto on different occasions to identify ways 
that we have in our program that we can improve on.
    We have also visited Lackland Air Force Base, DOD, because 
at the end of the day everybody has and is still and 
continually evolves their canine training practices.
    As far as shared tactics or shared facilities, we do extend 
our training availability to local, Federal, and State law 
enforcement agencies. So we are constantly working with them as 
well to either start a program or to advance or evolve their 
current program in existence.
    Senator Carper. All right. Thank you.
    I was struck, Dr. Otto, by your testimony where you 
mentioned that many of the errors made by canine teams are not 
the errors made by the dog but by the human handler. What are 
the requirements and limitations of a good human handler? And 
how well are we training that half of the canine team?
    Dr. Otto. So I think that is a really great point, that it 
is a team, and the dog----
    Senator Carper. Would you say that again?
    Dr. Otto. The dog and the handler are a team.
    Senator Carper. No, I am just kidding. Not many of our 
witnesses say that, do they, Mr. Chairman? [Laughter.]
    Dr. Otto. That is a great point. It is a very good point. 
Excellent points.
    Senator Carper. Thank you.
    Dr. Otto. So the team is really critical, and the dog, a 
lot of times we actually get in the way of the dog. And it 
really is something that we have to be paying very close 
attention to. When you have a team that works in synchrony, it 
is kind of like watching dancers, because they are so good at 
reading each other, and that is our goal. And I think a lot of 
times we do focus on the dog side of it, and we are not paying 
as much attention to training the handler.
    In our program we try to help our dogs work as 
independently as possible, and I think that is a lot of the 
goals here, too, especially with the passenger screening 
canines, that they really do need to work more independently.
    So I think those are goals that most organizations are 
working toward, but I think we still have a ways to go in 
finding our best handlers, training our handlers in the best 
way possible and making sure that the team is working well 
together.
    Senator Carper. OK. Thank you.
    Another question, and this might be for you, Ms. 
Hutchinson. It is a question about metrics. What metrics, if 
any, exist to indicate that the passenger screening canine 
training provides an added security benefit in return for the 
additional costs? And how was the passenger screening canine 
certification standard developed?
    Ms. Hutchinson. So we have been developing sort of the 
standard in the last 5 years, and really it is a training and 
certification standard. So in terms of metrics, the reason we 
know that these dogs are highly effective is very high 
evaluation rate on an annual basis by a third party. Science 
and Technology (S&T) helps us, another DHS Directorate, helps 
us in the evaluation process. We go in once a year to every 
airport and test these dogs on all of the odors to make sure 
they are proficient, and then just locally. A dog like 
Rriverso, he has to certify every 45 days on all of those 
odors, and if he does not, he comes out of the operation and 
gets retrained, if you will.
    So it is mostly just those evaluations, during the year, 
and then, of course, certification at the end of the year.
    Senator Carper. OK. Thanks.
    And if I could, Ms. Grover, in your testimony, you talked 
about some of the recommendations maybe the GAO has made to 
improve these programs. Would you just mention again--I think 
you did, but maybe a recommendation or two that has not been 
fully implemented, has not been accepted? Let us just talk 
about that for a minute.
    Ms. Grover. Sure. TSA has done a terrific job addressing 
the vast majority of our recommendations, and we completely 
agree that robust data exists to show that the passenger 
screening canines are effective at detecting explosives. There 
is a range. The data show that there are some airports and some 
teams that do not do as well as others, and so hopefully TSA 
will follow-up on that information and make sure that they are 
providing support to the teams that need it so that they can 
continue to improve.
    But the question that remains for GAO is whether or not it 
is the extra-specialized passenger screening training that 
makes the PSC canines effective or whether they could do just 
as well with the conventional training that all the canines 
receive, what the regular law enforcement handlers and their 
canines receive as well.
    Senator Carper. OK. My time has expired. As the Chairman 
mentioned earlier, we all serve on a bunch of different 
committees and subcommittees, and a number of those are in 
sessions right now. I am going to slip out and go to one to 
learn a little bit more about implementing the Trans-Pacific 
Trade Partnership in the Finance Committee.
    So I just want to say thank you again, Mr. Chairman, for 
pulling this all together. Thanks especially to Rriverso, to 
Hudson, and to Nicky, and their handlers, and to each of you 
who vocalized and verbalized on behalf of our canine friends.
    Thank you so much.
    Chairman Johnson. Thank you, Senator Carper.
    Let me go back to the metrics, because in our briefing here 
we did--certainly one metric is apprehensions of drugs, which 
is probably one of the most successful areas--almost 40,000 
apprehensions last year nationwide. I think it was last year--
yes, fiscal year 2015. Are there similar--first of all, do we 
have instances in TSA where we have detected bombs? Have we 
thwarted any attacks? Or have we just been very fortunate that 
we have not had those?
    Ms. Hutchinson. Yes, as far as we know, we have not had a 
terrorist come through a checkpoint with an explosive to be 
detected. So to your point, it is hard to measure the 
deterrence factor of having a dog at a checkpoint or anywhere 
else. So that is difficult for us.
    Chairman Johnson. Dr. Otto, can you talk about the 
specialized nature of the different smells, the different 
odors, and what that means from the standpoint of training?
    Dr. Otto. So there are a number of different odors, but the 
concept is all kind of the same on how we are going to train 
them. In our program we train our dogs with foundation work 
where they learn how to search. They do not necessarily learn a 
specific odor. And then depending on their physical 
characteristics and their behavioral characteristics, we may 
put them into different careers.
    So dogs that are searching for humans in disaster settings 
are searching for a really large amount of odor associated with 
that person. And those are dogs that are going to be wide-
ranging and really looking for odor.
    We also have a medical detection program where we have 
trained dogs to identify the odor associated with ovarian 
cancer in blood samples. That is a drop of blood. It is a very 
minute odor, and the dogs that work in that field are very 
meticulous and very thorough and work in a controlled 
environment.
    So those are kind of the two ends of the spectrum, and then 
identifying the environments that you would want, the passenger 
screening environment is going to be probably more similar to 
our search and rescue environment; whereas, maybe the more 
traditional screening of suitcases we might get a little bit 
closer to what we are dealing with the ovarian cancer 
detection, but usually the amount of odor is still going to be 
much, much greater than what we would see in something like the 
medical detection. Is that what you were asking?
    Chairman Johnson. Yes. Let us also talk about--because we 
talked a little bit about breeding capacity. To me that just 
seems like something we could overcome pretty quickly. There 
seems to be enough demand for these things, and we should know 
how to breed, so it is a matter of just getting the right ones.
    Let us talk about training capacity. Obviously, you have a 
certain approach to training which differs from other centers. 
Do we have a capacity shortage from the standpoint of training? 
And then ongoing training, too, you talked about a team and how 
important it is that we these dogs are trained and the handlers 
actually conduct that training on an ongoing basis, correct?
    Dr. Otto. Well, I can talk about the ongoing training that 
is necessary based on what SWGDOG has recommended as national 
guidelines and what the National Institute of Standards and 
Technology (NIST) Organization of Scientific Area Committees 
(OSAC) and the Committee on Dogs and Sensors recommends for 
ongoing training, 16 hours a month of ongoing training for the 
canine handler teams. But most of what we are doing, we are not 
really working with those graduate dogs, so I think I probably 
would defer to CBP or TSA to address some of those issues.
    Chairman Johnson. OK. Please.
    Mr. Montes. I am sorry, sir. Can you please repeat the 
question?
    Chairman Johnson. Really just talking about the ongoing 
training for the dogs, how the handlers--it is a 
responsibility. That is certainly what I heard from the 
University of Pennsylvania. This is not something you train the 
dog for a couple weeks or a couple months and then they are 
trained. You have to continually update that on a continuous 
basis, so if you can just kind of speak to that.
    Mr. Montes. Absolutely. So we all know ground zero is at 
the training centers. Our canines come in, and they go anywhere 
from a 14-week course to a 12-week to a 10-week course, 7 or 5. 
Depending on the variances of we are going to train our 
handlers, we talk about the team. So the canine itself, it is 
very important when we start the canine training with the 
canine that we determine what capacity that dog is going to be 
working in in the field, and that is based on our initial prior 
selection test.
    Chairman Johnson. Now, let me ask, are those dogs pre-
trained already and then you are just specifically training 
them for something? Or are you doing the entire training 
yourself?
    Mr. Montes. We do the entire training ourselves. What we 
want to do is we want to identify the canine based on its 
innate drives and capabilities, because all of our operational 
environments are very different. So depending on the 
operational environment, we want to be able to pair that dog in 
a training center to the operational request. For example, if 
you have a small border environment, Naco, Arizona, or you have 
a large border environment, San Isidro, Arizona, we want to 
make sure that we pair that dog in that environment so to have 
a successful working life. And that comes with the training 
that we develop at the training centers, the pairing with that 
handler coming from that environment, and essentially setting 
that dog up for success in the field. That is where it starts, 
at the training center. And then, of course, you have the 
continuing training that goes on with our subject matter 
experts, our instructors in the field. So it is more of a 
lateral handoff which progresses that canine throughout its 
career.
    Chairman Johnson. Ms. Hutchinson, do you have anything to 
add to that?
    Ms. Hutchinson. So it is slightly different on the TSA side 
of the house. So our canines, the explosive detection canines, 
which are all of our teams, are trained in a basic 15-week 
course. The passenger screening canines have an additional 10 
weeks because it is a very different search capability. As you 
saw, it is not a static bag. It is somebody who is moving, and 
it is a person. So they have to see that person as a search 
possibility. And then after we basically imprint all of our 
dogs on the odors, we pair that dog with a handler for 10 to 12 
weeks to figure out how to search people.
    One of the things we are trying to do on the training side 
is to be more efficient and sort of looking at the science with 
our Science & Technology and training on sort of families of 
odors, because it does take a long time to train these dogs 
because it is such a high-stakes business. So how can we look 
at sort of rather than imprinting odor by odor, looking at 
families of odors? So we are trying to compress those timelines 
to be able to deploy dogs faster, but it is a hard job. We have 
to train to that job.
    Chairman Johnson. Director Grover, you were talking about 
team failures. Can you just describe that in greater detail, 
what you are talking about there? Just describe what you are 
talking about.
    Ms. Grover. Well, it would just be an opportunity--it would 
be a circumstance when a canine team missed an explosive aid 
during either the annual certification or as part of TSA's 
cycle assessments where they are really paying great attention 
to all of the PSC teams to ensure that they are performing well 
and enhancing their performance.
    So the last data that GAO reviewed on this did show 
significant variation between the teams at the top-performing 
airports and the lower-performing airports, and that could be 
just because some teams had a bad day or two at the time of the 
testing, or it could be a longer-term issue. The details of the 
failure rates are Sensitive Security Information (SSI), so we 
can share them with your staff but not in a public environment. 
And TSA does have the data so that they can followup on that.
    Chairman Johnson. Dr. Otto, do you have any opinions of why 
you have team failures? Would it be the handlers not doing the 
ongoing training, kind of keeping the dog current and 
themselves current? Could you just kind of speak to that?
    Dr. Otto. I think there are a number of different things 
that can influence it. What we looked at is, when are our dogs 
at their peak, when are they doing best? I think, this is 
another opportunity where we can help the dogs to do their jobs 
without as much handler influence. The more independent that 
the dogs are, the less chance of maybe the handler having a bad 
day, the dog having a bad day, either one of them; that we can 
really help that move forward.
    I do think that there are a combination of environmental 
aspects that are going to affect it, but we definitely know in 
these teams that there is an interaction between the handler 
and the dog. So, paying attention to that.
    We have also looked at some of the medical aspects that may 
affect a dog's ability to detect odor, and happily, we do not 
have obvious problems in a lot of the medications that we have 
been testing. But there are some medications that can actually 
decrease the odor detection ability of a dog.
    Chairman Johnson. You are saying medications the dogs 
might----
    Ms. Otto. Dogs' medications.
    Chairman Johnson. OK. And are there different breeds that 
are better at different things?
    Ms. Otto. I think there are different personalities within 
breeds that are better at different things. Again, if we go to 
our cancer detection, which is a very specialized area, we have 
a German Shepherd, a Labrador, and a Springer Spaniel. And in 
our search and rescue dogs, we have a spectrum of breeds as 
well, and it is so much more the personality within the breed. 
I think when we are really selecting these dogs that have the 
genetic capacity for odor detection, it is then how does that 
dog's personality interact with its genetics.
    Chairman Johnson. Ms. Grover, you were talking about the 
added value of the specialized training for the passenger 
screening versus just conventional training. The bottom line, 
there is going to have to be some specialized training because 
they are dealing with passengers as opposed to down the bowels 
of the airport just going through bags, correct?
    Ms. Grover. Probably, yes. But GAO is an evidence-based 
organization, and so we would always want to make sure that TSA 
has good evidence to support that all of these additional weeks 
of training are necessary to get the outcomes. No need to spend 
the taxpayer dollars----
    Chairman Johnson. And we appreciate that, trust me.
    Ms. Grover. Right--unless it is necessary. And that data is 
not all in place yet.
    Chairman Johnson. OK. Being an accountant, I like evidence 
and I like metrics.
    Let me just close it out to both TSA and CBP. I really do 
want somebody within your organization providing written 
responses to questions for the record about, what is the 
desired level of teams here. My guess is you would all agree 
that they can be very effective, correct? And we really do need 
to take a hard look at--I do not want to be penny-wise and 
pound-foolish here. Just one instance of somebody getting 
through could be pretty harmful to our economy. So what I see, 
the 1,000 canine units within TSA, the 1,400--it costs money, 
but it is in the hundreds of millions of dollars versus the 
potential harm of a problem here. So I really do want to get a 
pretty good sense of how effective these are. What is the total 
cost? And what is the desired level? Because I would like to be 
supportive of this.
    Let me just kind of close out the hearing, going down the 
line, if you have a final comment before we end the hearing. We 
will start with you, Ms. Hutchinson.
    Ms. Hutchinson. Thank you for your strong support of our 
program. As you can see, they are very effective. We saw it 
here this morning. I know we need more across the system. We 
will get you that answer. We are looking at that as an 
organization.
    One thing we did not talk about which I think is a huge 
benefit for canines is just the ability to evolve them with the 
threat. So we can train them very quickly as new threats 
emerge, and we can also deploy them differently, so as the 
threat changes to insider threat, we can move them to the back 
side of the airport very quickly. So it is a very portable 
asset for us as well, and I think that is significant for our 
mission.
    Thank you.
    Chairman Johnson. Mr. Montes.
    Mr. Montes. Once again, thank you as well. I want to point 
out one significant point. As we continue to evolve our CBP 
Canine Training Program, one of the emphasis is the type of 
dogs that we are selecting and the process that we have been 
able to refine. I will give you the statistical number because 
you said you liked metrics.
    In fiscal year 2015, through our vendors, through our 
contracts, through our open source, 428 dogs were presented to 
us for possible selection of entering our service. Through our 
very rigorous performance and medical selection, we have only 
selected 278 of those. That is a 64-percent selection. So the 
dogs--there are an abundance of canines out there, but we are 
looking for a particular type of canine for our mission.
    Now, of those 270, currently we have 208 that have 
completed training. We have 51 that are in training. And only 
11 of those dogs were not able to meet our performance 
standards. And we talk about lexicon as far as failure. That is 
what we would consider failures.
    So as it is right now, the CBP canine program, the return 
on investment of taxpayer dollars, we are at a 95-percent 
success rate of dogs that walk through our door and our 
training that we are able to train, certify, and create a 
working dog team for the CBP operational components to enforce 
and secure our borders.
    Chairman Johnson. Thank you, Mr. Montes. Director Grover.
    Ms. Grover. Yes, sir. TSA does have an effective program 
here, and they have made great strides in using the metrics 
that they need to oversee their program, and we look forward to 
working with them to address these final issues remaining.
    Chairman Johnson. Thank you. Dr. Otto.
    Dr. Otto. I think that we all agree that the dogs do give 
us a huge advantage, and I think continuing in a collaborative 
research environment so that we can answer some of these 
questions, that we can provide those metrics. And I agree that 
the dogs are so flexible that even if a machine could detect 
some odor, when we look at the environments that they are 
working in and things that change, that whole ability for the 
dogs to problem-solve and reason really puts them kind of leaps 
and bounds ahead of any kind of machine-type approach to this 
problem.
    Chairman Johnson. OK. I want to thank you all for your time 
and your testimony. I want to thank the handlers, the dogs. I 
know Senator Carper named them. He did not mention Jerry, so 
thanks to Jerry for being just cute and soft. [Laughter.]
    Again, thank you all. I really do appreciate it.
    With that, the hearing record will remain open for 15 days 
until March 18 at 5 p.m. for the submission of statements and 
questions for the record. This hearing is adjourned.
    [Whereupon, at 11:07 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
